Audit of Title II Funding Under the Ryan White Comprehensive AIDS Resources Emergency (CARE) Act in Indiana-Indiana State Department of Health, Indianapolis, A-05-01-00073
Department
of Health and Human Services
"Audit of Title II Funding Under The Ryan White Comprehensive AIDS Resources
Emergency (CARE) Act in Indiana - Indiana State Department of Health, Indianapolis,
Indiana," (A-05-01-00073)
May 31, 2002
Complete
Text of Report is available in PDF format (669kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report, which resulted from a request by the Acting Administrator
of Health Resources and Services Administration (HRSA), presents the results
of our Audit of  Title II Funding under the Ryan White Comprehensive AIDS
Resources Emergency (CARE) Act in Indiana.  The Title II program was administered
by the Indiana State Department of Health (ISDH) and its terminated sub-grantee,
AIDServe Indiana, Inc. (AIDServe).  For the three year period ending March
31, 2001, ISDH claimed costs, amounting to $18,425,641, for the AIDServe operation
of the Title II and related programs, which included unallowable, unallocable,
and unapproved claims, amounting to $784,499, and inadequately supported claims
of $5,337,802.  Although the ISDH was actively involved in the administration
of the Title II program, increased oversight and involvement could have assured
that required audits were performed and corrective actions were taken to prevent
or alleviate many of the conditions disclosed during the audit.  We recommended
that ISDH refund unallowable, unallocable and unapproved costs amounting to
$784,499.  We set aside inadequately supported costs amounting to $5,337,802
for HRSAs adjudication.  Finally, we recommended that ISDH increase its
oversight of other sub-grantees and ensure that required audits are performed
in a timely manner.